U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Bannister v. Garland, No. 20-1206
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 16,
2021. The government’s response is now due, after one extension, on June 4, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including July 12, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1206
BANNISTER, ELIZABETH R., ET AL.
MERRICK B. GARLAND, ATTORNEY GENERAL

KATHERINE S. BARRETT WIIK
BEST & FLANAGAN LLP
60 SOUTH SIXTH STREET
SUITE 2700
MINNEAPOLIS, MN 55402
612-341-9710
KBARRETTWIIK@BESTLAW.COM
ALICIA GRANSE
701 4TH AVENUE SOUTH
#1400
MINNEAPOLIS, MN 55415
651-675-9759
GRANS014@UMD
KATHLEEN A. MOCCIO
UNIVERISTY OF MINNESOTA LAW SCHOOL
229 19TH AVENUE SOUTH
MINNEAPOLIS , MN 55402
612-625-5515
KMOCCIO@UMN.EDU
FREDERICK MATTHEW RALPH
DORSEY & WHITNEY LLP
50 SOUTH SIXTH STREET
SUITE 1500
MINNEAPOLIS, MN 55402
612-340-2600
RALPH.MATTHEW@DORSEY.COM

MAHESHA P. SUBBARAMAN
SUBBARAMAN PLLC
222 S. STREET
SUITE 1600
MINNEAPOLIS, MN 55402
612-315-9210
MPS@SUBBLAW.COM

